                                   SOCIAL SECURITY
MEMORANDUM

Date:   September 24, 2009                                           Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Follow-up: The Social Security Administration’s Computer Security Program
        Compliance (A-14-09-19048)


        The attached final report presents the results of our audit. Our objective was to
        determine whether the Social Security Administration had implemented the
        recommendations in our June 2001 report, Compliance of the Social Security
        Administration’s Computer Security Program with Applicable Laws and Regulations
        (A-13-98-12044).

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have your
        staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.



                                                       S
                                                          Patrick P. O’Carroll, Jr.

        Attachment
            OFFICE OF
     THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


              FOLLOW-UP:
 THE SOCIAL SECURITY ADMINISTRATION’S
COMPUTER SECURITY PROGRAM COMPLIANCE

     September 2009   A-14-09-19048




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                             Executive Summary
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) had
implemented the recommendations in our June 2001 report, Compliance of the Social
Security Administration’s Computer Security Program with Applicable Laws and
Regulations (A-13-98-12044).

BACKGROUND
Our 2001 audit examined whether SSA’s computer security program complied with the
Computer Security Act of 1987, the Government Information Security Reform Act of
2000 (GISRA), and other applicable laws, regulations, and Federal guidance. Our
June 2001 report stated that SSA lacked a strong framework for overall security
administration, policy development, and policy implementation. We recommended that
SSA:

1. Centralize its systems security management structure to comply with GISRA and
   other applicable laws.

2. Develop a more inclusive system security plan for the mainframe and distributed
   computing environments.

3. Implement a global e-mail and other appropriate methods for broadcasting computer
   incidents.

4. Develop sanctions for users who cause system disruptions or share passwords.

5. Develop a computer system security manual consistent with guidance provided by
   the National Institute of Standards and Technology, and incorporate in it all existing
   computer security policies.

RESULTS OF REVIEW
SSA considered each of the five prior recommendations to be implemented and closed.
Our follow-up review determined that SSA had implemented Recommendations 2 and
4. However, SSA had not fully addressed Recommendations 1, 3 and 5. Despite
SSA’s efforts to address these recommendations, our current review found that:

 SSA continued to have a decentralized/fragmented information security management
  structure;
 the Office of the Chief Information Officer did not have sufficient delegated authority
  and resources to carry out its responsibilities for SSA’s information security program;


Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                  i
 SSA had not sufficiently documented its policy and procedures to ensure all systems
  users receive timely notification of imminent security incidents; and
 SSA’s Information Systems Security Handbook (ISSH) did not cover all security
  areas and contained outdated and inaccurate information.

Although SSA had complied with certain security-related requirements, there are
opportunities to improve the efficiency and effectiveness of the overall program. We
believe a centralized approach to security management would be in line with the current
Agency initiative of adopting a more integrated and seamless approach to systems
development to address the Agency’s growing needs effectively and efficiently.

CONCLUSION AND RECOMMENDATIONS
SSA has taken some actions to address the five recommendations from our prior report.
Two recommendations were fully implemented, and partial corrective action has been
taken on the remaining three. Based on our review and the current guidance on
information security, we believe a centralized information security management
structure will better position the Agency to effectively manage and monitor its agency-
wide information security program. As such, we reaffirm the merits of our original
Recommendation 1 and recommend that SSA:

1. Centralize its security management structure to ensure a coordinated approach to its
   agency-wide information security program.

2. Clearly delineate roles, responsibilities, and lines of communication that report to a
   single management focal point.

We have also revised previous, or included new recommendations to ensure full
compliance with our prior recommendations and/or to address new issues we identified
during the course of this audit. We recommend SSA:

3. Ensure the Chief Information Officer (CIO) has sufficient delegated authority and
   resources to fulfill his security responsibilities according to applicable laws,
   regulations, and guidance.

4. Update its agency-wide Information Security Program Plan.

5. As appropriate, ensure written polices and procedures require notification of all
   Agency systems users for certain computer incidents.

6. Update the ISSH with the most current and accurate information and consider
   further delineating security roles and responsibilities of Agency components and
   security officers related to the subject matter in each chapter. SSA should include
   all security policies or references in the ISSH.




Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                  ii
AGENCY COMMENTS
SSA agreed with Recommendations 4, 5, and 6, but deferred responding to
Recommendations 1, 2, and 3 until the CIO has the opportunity to review the issues
discussed in the report. See Appendix E for the full text of SSA’s comments.

OIG RESPONSE

We encourage the Agency to move quickly to implement Recommendations 1, 2, and 3
once the CIO has the opportunity to evaluate the issues addressed in the report. The
implementation of these recommendations will help ensure a more efficient and
effective management of the Agency’s information security program.




Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                iii
                                                                    Table of Contents
                                                                                                             Page

INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................3

Fully Implemented Recommendations ....................................................................4

        Prior Recommendation 2..............................................................................4
        Prior Recommendation 4..............................................................................4

Partially Implemented Recommendations ...............................................................5

        Prior Recommendation 1..............................................................................5
        Prior Recommendation 3............................................................................13
        Prior Recommendation 5............................................................................13

CONCLUSION AND RECOMMENDATIONS .......................................................16

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Federal Information Security Management Act
             Requirements Related to Security Management Structure

APPENDIX D – Current Social Security Administration Security Management Structure
             and the Office of the Inspector General Recommended Staff Functions
             and Reporting Lines

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments




Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)
                                                                        Introduction
OBJECTIVE
Our objective was to determine whether the Social Security Administration (SSA) had
implemented the recommendations in our June 2001 report, Compliance of the Social
Security Administration’s Computer Security Program with Applicable Laws and
Regulations (A-13-98-12044).

BACKGROUND
Our 2001 audit examined whether SSA’s computer security program1 complied with the
Computer Security Act of 1987 (CSA), Government Information Security Reform Act of
2000 (GISRA), and other applicable laws, regulations, and Federal guidance. Our
June 2001 report stated that SSA lacked a strong framework for overall security
administration, policy development, and policy implementation. To address these
findings, we recommended that SSA:

1. Centralize its systems security management structure to comply with GISRA and
   other applicable laws to ensure all key security components responsible for agency-
   wide security policy and administration report directly to the Chief Information Officer
   (CIO).

2. Develop a more inclusive system security plan for the mainframe and distributed
   computing environments according to National Institute of Standards and
   Technology (NIST) Special Publication (SP) 800-18.

3. Implement a global e-mail and other appropriate methods for broadcasting computer
   incidents. This would include automated calling process and office intercom
   systems.

4. Develop sanctions for users who cause system disruptions or share passwords.

5. Develop a computer system security manual consistent with guidance provided by
   NIST, and incorporate in it all existing computer security policies.

The Agency agreed or partially agreed with all these recommendations. Since our
2001 audit, there have been major changes and revisions in Federal laws, regulations,


1
  During the 2001 audit, the CSA contained the major criteria related to the security of sensitive
information in computer systems. We used the term “computer security program” to describe the security
framework and requirements. Since 2001, GISRA and the Federal Information Security Management
Act, adopted the term “agency-wide information security program” that is used in this report. For the
same reason, the term “computer security” has been replaced by “information security” to include both
information systems and information.


Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                                1
and requirements for agency-wide information security programs.2 In this review, we
examined and determined whether SSA implemented our recommendations and
complied with the current Federal requirements in the related areas.

CHANGES IN LAWS, REGULATIONS AND REQUIREMENTS

Since our 2001 audit, the Federal Information Security Management Act of 2002
(FISMA) repealed the CSA,3 and GISRA expired in November 2002. As a result,
FISMA became the overall criteria for agency-wide information security programs for
Federal agencies. In addition, NIST revised and issued new security guidance that
Federal agencies are required to comply with under FISMA.

FISMA requires that Federal agencies develop, document, and implement an agency-
wide information security program to provide security for the information and information
systems that support the agency’s operations and assets.4 FISMA also requires that a
Federal agency head delegate authority to the agency CIO to ensure compliance with
FISMA’s requirements.5 The CIO should appoint a senior agency information security
officer6 to head an office with the mission and resources to assist in ensuring agency
compliance with FISMA.7

In addition to specifying responsibilities of the CIO and the senior agency information
officer, FISMA also requires that an agency-wide information security program include
periodic risk assessments, a risk management process, security planning, periodical
security evaluations, security training, a security deficiency remediation process, an
incident response process, and continuity of operations.8 See Appendix C for more
details on FISMA requirements related to security management structure.




2
    See Footnote 1.
3
    Pub. L. No. 107-347, Title III, Section 305 (a).
4
    Pub. L. No. 107-347, Title III, Section 301 (b)(1) § 3544 (b), 44 U.S.C. § 3544 (b).
5
    Pub. L. No. 107-347, Title III, Section 301 (b)(1) § 3544 (a)(3), 44 U.S.C. § 3544 (a)(3).
6
    SSA’s Chief Information Security Officer is the designated Senior Agency Information Security Officer.
7
    Pub. L. No. 107-347, Title III, Section 301 (b)(1) § 3544 (a)(3)(A), 44 U.S.C. § 3544 (a)(3)(A).
8
    Pub. L. No. 107-347, Title III, Section 301 (b)(1) § 3544 (b), 44 U.S.C. § 3544 (b).


Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                                        2
                                                  Results of Review
While SSA considered the five recommendations in our 2001 audit to be implemented
and closed, based on our follow-up review, we believe there are still steps that need to
be taken to fully address three of our prior recommendations. Specifically, we
determined that SSA implemented prior Recommendations 2 and 4 to develop (1) a
more inclusive system security plan for the mainframe and distributed computing
environments and (2) sanctions for users who cause systems disruptions. However,
SSA had not fully addressed the prior Recommendations 1, 3, and 5 to (1) centralize its
security management structure, (2) implement a global system user notification
mechanism for imminent security incidents, and (3) develop a computer system security
manual to incorporate all related policies. Despite the Agency’s efforts to address the
prior recommendations, we found the following:

 SSA continued to have a decentralized/fragmented information security management
  structure.
 The Office of the CIO (OCIO) did not have sufficient delegated authority and
  resources to carry out its responsibilities for SSA’s information security program.
 SSA had not sufficiently documented its policy and procedures to ensure all systems
  users receive timely notification of imminent security incidents.
 SSA’s Information Systems Security Handbook (ISSH) did not cover all security
  areas, and contained outdated and inaccurate information.

The following sections describe the status of SSA’s implementation of our 2001
recommendations as well as any additional issues identified during this review. Where
warranted, we made additional recommendations to assist SSA in strengthening its
agency-wide information security management posture. Given the inherent importance
of the information security management structure, we expanded our work beyond just
assessing SSA’s implementation of our prior recommendations. See Appendix B for
more details on our scope and methodology.




Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                   3
FULLY IMPLEMENTED RECOMMENDATIONS

Prior Recommendation 2: Develop a more inclusive system security plan for the
mainframe and distributed computing environments according to NIST SP 800-18.

Our 2001 review found that SSA’s System Security Plan (SSP) for the Enterprise-Wide
Mainframe and Distributed Network Telecommunications Services System did not fully
meet Office of Management and Budget (OMB) or NIST requirements. We reported the
SSP

    did not disclose vulnerabilities;
    referred to past risk assessments when no risk assessments had been performed
     within the prior 5 years; and
    did not include some elements as required by OMB and NIST.

As part of our Fiscal Year 2008 FISMA review,9 the Office of the Inspector General
(OIG) and its contractor reviewed the SSPs and other Certification and Accreditation
(C&A) documentation10 for the following four SSA major applications and systems:

    Enterprise-Wide Mainframe and Distributed Network Telecommunications Services
     System;
    Electronic Disability System;
    Integrated Client Database; and
    Earnings Records Maintenance System.

We found SSA had performed risk assessments and developed SSPs for these
systems. We concluded that SSA’s C&A documentation, including the risk
assessments and SSPs, generally addressed all elements as recommended by OMB
and NIST requirements. As a result, we consider this recommendation implemented.

Prior Recommendation 4: Develop sanctions for users who cause system
disruptions or share passwords.

Our 2001 review reported that while SSA’s security program described sanctions for
unauthorized systems access, it did not document sanctions for users who disrupt
system operations, cause systems to shutdown, or share passwords. SSA originally
agreed with the recommendation but after further review of its policies, determined that
a separate set of sanctions did not need to be developed to implement this
recommendation.

9
 SSA OIG, Fiscal Year 2008 Evaluation of the Social Security Administration’s Compliance with the
Federal Information Security Management Ac (A-14-08-18063), September 2008.
10
 C&A is the authorizing process for the use of information systems. SSA’s C&A documentation for a
major application or system includes a System Security Plan, Risk Assessment Report, and Security
Control Assessment Report.


Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                               4
SSA’s Rules of Behavior for Users and Managers of SSA's Automated Information
Resources describe expected behavior for all SSA personnel, contractors, and external
users of SSA’s information systems. It states, “Failure to follow these prescribed rules,
and/or misuse of information resources, can lead to suspension, termination or other
administrative or legal actions based on the seriousness of the violation.” As a result,
we concluded that SSA had addressed the intent of this recommendation.

PARTIALLY IMPLEMENTED RECOMMENDATIONS
Prior Recommendation 1: Centralize the systems security management structure
to comply with GISRA and other applicable laws to ensure that all key security
components responsible for agencywide security policy and administration
report directly to the CIO.

In our 2001 review, we found the security and information technology (IT) management
components under various Deputy Commissioner (DC) offices did not directly report to
the CIO.

We provided the following diagram to SSA as an example of the proposed staff and
functions that we recommended as direct reports to the OCIO. It should be noted that
some of the acronyms for components that existed when we issued the 2001 report
have now been re-titled. Please see the footnote below.11




11
  The diagram is documented in our 2001 report, page 7. Information Technology Systems Review Staff
(ITSRS) was re-titled the Office of Information Technology Investment Management. The Deputy
Commissioner for Finance, Assessment, and Management (DCFAM) has been re-titled the Deputy
Commissioner for Budget, Finance and Management. SSA Information Systems Security Officer
(SSAISSO) was responsible for developing agency-wide information security policies and procedures and
ensuring proper implementation of the policies. SSA’s Chief Information Security Officer resumed the
policy-making responsibilities of the prior SSAISSO. The Office of Information Systems Security was
re-titled the Office of Information Technology Security Policy.


Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                               5
                                       Diagram 1




The Agency agreed in principle with the recommendation but did not agree to move all
functions that we recommended under the direct supervision of the CIO. Instead, SSA
responded that it would review the capacity of the OCIO to directly oversee computer
security and asset management functions.

Since our 2001 audit, SSA moved the CIO from the immediate Office of the
Commissioner and created the new OCIO. The OCIO was established as an
Agency-level office whose head is appointed by the President or by the Commissioner,
if delegated by the President, for a 6-year period. At the same time, SSA abolished the
Information Technology Systems Review Staff and the Office of Information Systems
Security in DCFAM and transferred the policy functions of both to the OCIO. In
addition, SSA established two major offices that report directly to the CIO—the Office of
Information Technology Investment Management (OITIM) and the Office of Information
Technology Security Policy (OITSP). OITIM is responsible for SSA’s information
technology (IT) capital investment planning and investment control process. OITSP
establishes agency-wide security policies and manages the reporting and evaluation
processes for SSA’s FISMA compliance. SSA also established the position of the Chief
Information Security Officer (CISO) to head OITSP. See the following diagram for the
current information security management structure (see a detailed description of the
diagram in Appendix D).




Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                   6
                                                 Diagram 212
                                       SSA Security Management Structure and
                                     Network of Security Components and Officers


            CIO                 DC               DC             DC                       DC             All Other DCs
                            for Systems      for Budget         for                  for Human           and Agency
                                            Finance and      Operations              Resources          Level Officers
                                            management


           CISO              Office of        Office of       Office of                Office of         Other DC-
                             Systems       Budget, Finance   Operations                 Human           and Agency-
           OITSP                                and                                    Resources        level Offices
                            OTSO and        Management         DSSPI
                             OESAE/                                                         OPE/
                              DISA          OEIE and OFM                                   CPSPM

                                                                 Component                             Component
                                                                   Security                            Security
                                                                  Officers at                          Officers
                            Component        Component           headquarters
                             Security         Security            and Center
                             Officers         Officers           Directors for             Component
                                                                 Security and               Security
                                                                Integrity in all            Officers
                                                                    regions
           Bi-weekly IT
          Security Policy
           and Strategy                                        Local               State
             Advisory                                         Security             DDSs
           Meetings (on                                       Officers
          security issues
           and policies)



In the diagram above, the offices depicted in red perform some aspect of information
security management. Because SSA did not fully address the recommendation to
centralize its information security management structure, it continues to have a
decentralized/fragmented information security management structure without a single
management focal point. Furthermore, we determined the OCIO does not have
sufficient delegated authority. As detailed in the section on SSA’s Decentralized
Security Program Structure Lacks a Single Management Focal Point, we illustrate the
decentralized roles and responsibilities that yield a stove-piped approach to security
with limited communication.

The Chairman of the Social Security Advisory Board, in recent testimony before the
Subcommittee on Social Security, Committee on Ways and Means, U.S. House of
Representatives,13 suggested that the recently identified issues with SSA’s processing


12
  For additional acronyms in Diagram 2: OTSO, Office of Telecommunications and Systems Operations;
OESAE/DISA, Office of Enterprise Support, Architecture and Engineering/Division of Information Security
and Assurance; OEIE, Office of Electronic Information Exchange; OFM, Office of Facilities Management;
DSSPI, Division of Systems Security and Program Integrity; OPE/CPSPM, Office of Personnel/Center for
Personnel Security and Project Management; DDS, Disability Determination Services.
13
  Statement of Sylvester J. Schieber, Chairman, Social Security Advisory Board to the Subcommittee on
Social Security House Committee on Ways and Means, U.S. House of Representatives, Oversight
Hearing on the Progress made by the Social Security Administration in Implementing the American
Recovery and Reinvestment Act of 2009, April 28, 2009.


Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                                                    7
center14 are rooted in SSA’s decentralized IT investment governance process, exposing
SSA’s system infrastructure to great risk. The Chairman stated SSA’s decentralized IT
governance process has resulted in a dilution of ownership and management of the
Agency’s overall IT process. The Board believed that it would take strong leadership for
the Agency’s IT governance to be more productive and ensure SSA’s infrastructure is
not exposed to such risk again. The Board recommended that SSA restructure its
governance process and centralize overall responsibility for all IT processes.

Likewise, we believe it is critical that SSA consider a centralized security management
structure that provides the CIO with sufficient delegated authority and resources to fulfill
his responsibilities. Although SSA has managed to comply with certain security-related
requirements, there are opportunities to improve the efficiency and effectiveness of the
overall program. We believe a centralized approach to security management would be
in line with the current Agency initiative of adopting a more integrated and seamless
approach to systems development to address the growing needs of the Agency in an
effective and efficient manner. To that end, we reaffirm our original recommendation for
SSA to centralize its information security management structure.

As detailed in the section on SSA’s CIO does not have Sufficient Delegated Authority
and Resources to Carry Out Required Security Monitoring and Management
Responsibilities, we discuss how resource levels impact the CIO security functions. We
believe it is critical that these functions receive the resources needed to carry out
security management and oversight responsibilities. The following sections describe
the status of SSA’s decentralized information security management structure and the
need for additional resources in the CIO functions.

SSA’s Decentralized Security Program Structure Lacks a Single Management
Focal Point

A Government Accountability Office (GAO) survey of leading organizations found that a
central management focal point is one of the principles embraced by all the
organizations. GAO identified five risk management principles that provided a
framework for an effective Information Security Program.15




14
   The Board stated that the current 30-year old data processing center, the National Computer Center
(NCC), would no longer be viable by the end of 2012. A new NCC will take 4 to 5 years to build.
However, by 2013, the second data center designed as a fully functional co-processing facility to the NCC
is expected to have full backup capacity for the NCC.
15
 GAO Executive Guide: Information Security Management, Learning from Leading Organizations,
GAO/AIMD-98-68, May 1998, pages 17-18.


Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                                  8
                                       Diagram 3




SSA’s practices in information security risk management generally contain the elements
identified in the model, with the exception of the central management focal point. At
SSA, tasks in the risk management cycle in the above diagram are performed by
different components in different DC-level offices without a central reporting structure.
The following describes the key offices and officers who have security responsibilities
and play significant roles in SSA’s agency-wide security program.
   The Office of Electronic Information Exchange (OEIE), within the Office of Budget,
    Finance and Management (OBFM), is responsible for security administrative
    controls, security training, managing on-site system reviews, and managing and
    directing a comprehensive security compliance and monitoring program. OEIE
    develops security procedures and requirements that are followed by SSA
    components and security officers agencywide and is responsible for the security
    program for SSA’s data exchange programs.
   The Office of Telecommunications and Systems Operations (OTSO), within the
    Office of Systems (Systems), is responsible for technical controls and requirements
    development, implementation, and monitoring; identifying and providing IT security
    incident data to the CISO for external reporting; and planning, executing, and
    maintaining SSA’s disaster recovery program for critical information systems.
   The Division of Systems Security and Program Integrity (DSSPI), within the Office of
    Operations (Operations), manages a national security program with different levels
    of security offices and officers that cover all SSA regional offices, field offices,
    teleservice centers, program service centers, and all Headquarters Operations
    components.


Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                     9
   Component Security Officers are responsible for ensuring compliance with security
    requirements for DC-level offices and Agency-level offices.

These components and security officers form the network of SSA’s security program but
do not report to the CIO. In addition, some important security functions and programs
managed and performed by these components and security officers do not involve the
OCIO. For example, the Onsite Security Control and Audit Review program that
includes systems security and physical security of many operating units, field offices,
and program service centers, does not involve the OCIO. Not only is there no OCIO
involvement, the results of these reviews are not shared with OCIO. The security
components and security officers of the national security program, managed by
Operations, that handle daily security issues and ensure security compliance do not
report to the CIO. Furthermore, the security components in OTSO in charge of
technical controls implementation and monitoring do not report to the CIO.

Although the OCIO is responsible for the Agency’s information security program, the
CIO’s authority is inherently limited by the current security management structure.
Under the current structure, the CIO is only responsible for security policy-making and
FISMA reporting. The CIO does not oversee and monitor agency-wide compliance with
FISMA and other security standards and requirements. Each DC and Agency-level
office is responsible for compliance with all security requirements for their respective
component but does not periodically report to the CIO. Our review found that none of
the security components or offices was responsible for ensuring agency-wide security
compliance. As a result, SSA’s security management structure was fragmented and not
as effective as it could be.

Although the CIO is, by law, responsible for ensuring agency-wide security compliance,
the CIO does not have the delegated authority, resources, and staff with necessary
expertise to conduct sufficient compliance monitoring activities. Even within the security
functions performed by OCIO, it largely relies on other components to cooperate and
provide data, resources, and expertise.

As a result, the OCIO experienced many challenges that included the following:
   Setting security policies and changes in security environment or controls is a time-
    consuming negotiation process that may take months to years to obtain security
    components’ cooperation and agreement on security policies and issues.
   The OCIO does not have the capability of adequately and timely reporting to higher
    oversight authorities on security issues and major incidents.
   The OCIO cannot ensure an effective agency-wide security program, given the
    limited authority and resources.
   The OCIO does not have sufficient access to critical data, reports, and
    documentation to perform their duties.




Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                      10
To fully comply with FISMA and other applicable laws and regulations, SSA needs to
have all staff responsible for developing agency-wide security policy report to the CIO.
Staff responsible for administering component information security policy related to day-
to-day operations and consistent with agency-wide security policy should indirectly
report to the CIO through their respective DC or equivalent. We suggest the following
reporting of staff and functions to the CIO.

                 Recommended Staff Functions and Reporting Lines

                                                                  Staff Responsible for
                                                                  Implementing Agency-wide
                                                                  Security Program
     Staff Responsible for        Chief Information
     Personnel Security and           Officer/
     Suitability Program          Chief Information               Staff Responsible for
                                   Security Officer               Developing and
                                                                  Implementing Physical
                                                                  Protection Requirements for
    Staff Responsible for                                         SSA Facilities
    Information Assurance




      IT Investment             Staff Responsible for               Staff Responsible for
      Management Staff          Information Security                Continuity of Operations
                                Policy Including Personnel          Program for Information
                                and Physical Security               Systems
                                Policy Development


                                                       ----- Indirect Reporting to CIO
                                                       ___ Direct Reporting to CIO



This proposed security management structure would best position SSA to implement
and maintain an agency-wide security program, especially with increased public access
to Social Security services via the Internet and growing systems interconnectivity. Solid
lines show direct reporting to the CIO, while dotted lines show indirect reporting to the
CIO through an organization’s respective DC or equivalent. This diagram does not
include staff responsible for network operations. For more details on the functions
performed by staff in this diagram, see Appendix D.




Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                           11
“For a central computer security program to be effective, it should be an established
part of organization management.”16 The NIST guidance states that a “. . . well
established program will have a program manager recognized within the organization as
the central computer security program manager.”17 “In addition, the program will be
staffed with able personnel, and links will be established between the program
management function and computer security personnel in other parts of the
organization.”18 SSA needs to have a single authority and a driving force to ensure the
effectiveness of its security program. We continue to recommend that SSA centralize
its management structure to ensure the effectiveness of its security program.

SSA’s CIO Does Not Have Sufficient Delegated Authority and Resources to Carry
Out Required Security Monitoring and Management Responsibilities

According to FISMA, each agency is required to implement an agency-wide information
security program to provide security for its information and information systems that
support the operations and assets of the agency.19 The CIO is responsible for ensuring
agency compliance with FISMA and designating a senior agency information security
officer to head an office with the mission and resources to assist the CIO in ensuring
agency compliance with FISMA.20 Furthermore, NIST guidance states that the security
program should also address compliance with national policies and requirements as
well as organization-specific requirements.21

Although SSA has substantially complied with FISMA, SSA’s CIO does not have
sufficient delegated authority, resources, and expertise to fulfill all required FISMA
responsibilities. The CIO’s delegated authority and functions are limited to setting
agency-wide security policies and FISMA-related testing, evaluation, and reporting.
Except for the functions OCIO retains, all FISMA IT security program-related functions
and responsibilities are delegated to OBFM, Systems, Operations, and other
components. The CIO and CISO currently have a security staff of eight, supplemented
with approximately six contractors. At this staffing level, some functions defined and
implied by FISMA as major responsibilities of the CIO are not performed by the OCIO at
SSA. For example, SSA’s OCIO does not
      manage, direct, or monitor SSA’s agency-wide security program as a whole;
      run an agency-wide compliance monitoring program to ensure compliance with
       FISMA and other security standards and requirements;
16
  NIST SP 800-12, An Introduction to Computer Security: The NIST Handbook, October 1995,
section 6.3, page 51.
17
     Id.
18
     Id.
19
     Pub. L. No. 107-347, Title III, Section 301 (b)(1) § 3544 (b), 44 U.S.C. § 3544 (b).
20
     Pub. L. No. 107-347, Title III, Section 301 (b)(1) § 3544 (b), 44 U.S.C. § 3544 (b).
21
     NIST, supra, section 6.3, page 52.


Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                       12
    have authority over personnel security, physical security, and security of SSA’s data
     exchange program; or
    lead SSA’s Continuity of Operations program for information systems.

SSA should assess the appropriate staffing level for the OCIO commensurate with its
security responsibilities, and provide sufficient resources to the OCIO so it can maintain,
manage, and monitor a security program that covers about 64,000 SSA employees and
25,000 contractors. In addition, the CIO does not have the level of delegated authority
commensurate with the CIOs responsibilities. For example, the security component
within OBFM, OEIE, chairs SSA’s Critical Infrastructure Protection Committee and
serves as the representative for its entity-wide security program22 under the annual
financial statement audit. The CIO should have sufficient delegated authority, staff, and
resources to implement and maintain an agency-wide compliance monitoring program
and to fulfill other security management responsibilities.

Prior Recommendation 3: Implement a global e-mail and other appropriate
methods for broadcasting computer incidents. This would include an automated
calling process and office intercom systems.

Our 2001 review reported that during the “I LOVE YOU” virus attack, SSA was unable
to immediately inform all SSA employees of the attack and had to temporarily shut down
Agency e-mail systems to prevent the spread of the virus. While SSA agreed with, and
had taken steps to, implement our recommendation, we concluded that SSA had not
fully implemented this recommendation.

SSA stated it uses a broadcasting tool as well as global e-mail messages to inform
employees of outages, system updates, and security incidents. However, we found that
SSA has not sufficiently documented these procedures in the ISSH and related incident
handling and reporting guide.

We recommend that SSA properly document the incident broadcasting process so the
policy and procedures are readily available for all SSA users, and that all SSA systems
users are timely and properly informed when certain computer incidents occur.

Prior Recommendation 5: Develop a computer system security manual consistent
with guidance provided by NIST and incorporate in it all existing computer
security policies.

In our 2001 report, we found SSA did not have all security policies and procedures
integrated into one comprehensive document. SSA agreed with the recommendation
and has made improvements. Since our 2001 review, SSA further integrated security
policy into its ISSH by including electronic links and references to SSA management
and operations manuals and Federal laws, regulations, and guidance. However ISSH

22
  The GAO Federal Information System Controls Audit Manual uses the term entity-wide security
program rather than agency-wide security program.


Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                           13
does not include all security-related policies. For example, ISSH does not include
SSA’s security policy or references related to its State data exchange programs, State
Disability Determination Services, and physical and facility protection. ISSH is also not
clear about SSA’s policy on timely informing all employees and systems users about
malicious security incidents. We concluded that SSA had not fully addressed our
recommendation.

While conducting this review, we identified the following areas where SSA can further
improve its current ISSH and security program documentation:

1. SSA Should Update its Agency-Wide Information Security Program Plan

SSA has referred to the ISSH as its documented agency-wide security program.
However, ISSH does not include an agency-wide master plan that documents how SSA
protects its information and information systems. SSA’s OCIO had posted an IT
Systems Security Plan on the OITSP website. However, this document had not been
updated to reflect SSA’s current agency-wide security program plan.

SSA should have a written plan that clearly describes its information security program in
addition to the policies and procedures that support the program. During this review, we
found the OCIO is drafting an IT Security Program Plan.

2. Roles and Responsibilities are not Defined Clearly in the ISSH Chapters

Each chapter of the ISSH has a section called Roles and Responsibilities that lists
components, security officers, managers, and users who have specific responsibilities
for the subject matter of the chapter through electronic links to general descriptions of
their security roles and responsibilities. However, ISSH did not clearly delineate their
roles and responsibilities directly related to the chapter. For example, the chapter on
Systems Access Policy lists OITSP as one of the components that has specific
responsibilities by providing an electronic reference link; however, it does not link to a
description of specific access control responsibilities for OITSP.

Federal guidance requires that security responsibilities be clearly delineated and
specifically assigned to the organization elements and officials responsible for the
implementation and continuity of the computer security policy.23 SSA needs to provide
a more specific description of what responsibilities the security components and officers
have in the security areas discussed in each ISSH chapter.

3. ISSH Needs to be Revised and Updated with the Most Current and Accurate
   Information

     The Security Organizational Structure diagram documented in Chapter 1 does not
      reflect the current authority structure of SSA’s security management program. For
      example, the Center Directors for Integrity and Security report to the Assistant
23
     NIST, supra, section 5.1.1, page 36.


Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                        14
    Regional Commissioners in Operations. However, the ISSH diagram indicates they
    report to OEIE in OBFM. Further, none of the security components directly report to
    the OCIO, as indicated in the diagram.

   The ISSH contains old component names, outdated guidance, and duplicate
    information.

SSA should review the current ISSH to ensure it contains the most current and accurate
information.




Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                15
                                                   Conclusion and
                                                 Recommendations
SSA has taken some actions to address the five recommendations from our
2001 report. Two recommendations were fully implemented and partial corrective
action has been taken on the remaining three. Based on our review of the current
guidance on information security, we believe a centralized information security
management structure will better position the Agency to effectively manage and monitor
its agency-wide information security program. As such, we reaffirm the merits of our
previous Recommendation 1 and recommend that SSA:

1. Centralize its security management structure to ensure a coordinated approach to its
   agency-wide information security program.
2. Clearly delineate roles, responsibilities, and lines of communication that report to a
   single management focal point.

We have also revised previous, or included new recommendations to ensure full
compliance with our prior recommendation and/or to address new issues we identified
during this audit, as set forth below.

3. Ensure the CIO has sufficient delegated authority and resources to fulfill required
   security responsibilities according to applicable laws, regulations, and guidance.
4. Update the agency-wide Information Security Program Plan.
5. As appropriate, ensure written polices and procedures require notification of all
   Agency systems users for certain computer incidents.
6. Update the ISSH with the most current and accurate information, and consider
   further delineating security roles and responsibilities of Agency components and
   security officers related to the subject matter in each chapter. SSA should include
   all security policies or references in the ISSH.

AGENCY COMMENTS
SSA agreed with Recommendations 4, 5, and 6, but deferred responding to
Recommendations 1, 2, and 3 until the CIO has the opportunity to review the issues
discussed in the report. See Appendix E for the full text of SSA’s comments.

OIG RESPONSE
We encourage the Agency to move quickly to implement Recommendations 1, 2, and 3
once the CIO has the opportunity to evaluate the issues addressed in the report. The
implementation of these recommendations will help ensure a more efficient and
effective management of the Agency’s information security program.



Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                       16
                                         Appendices




Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)
                                                                        Appendix A

Acronyms
 C&A              Certification and Accreditation
 CIO              Chief Information Officer
 CISO             Chief Information Security Officer
 CPSPM            Center for Personnel Security and Project Management
 CSA              Computer Security Act of 1987
 CSI              Center for Security and Integrity
 CSO              Component Security Officer
 DC               Deputy Commissioner
 DCFAM            Deputy Commissioner for Finance, Assessment and Management
 DDS              Disability Determination Services
 DISA             Division of Information Security and Assurance
 DSSPI            Division of Systems Security and Program Integrity
 FISMA            Federal Information Security Management Act of 2002
 GAO              Government Accountability Office
 GISRA            Government Information Security Reform Act of 2000
 ISSH             Information Systems Security Handbook
 IT               Information Technology
 ITSRS            Information Technology Systems Review Staff
 NCC              National Computer Center
 NIST             National Institute of Standards and Technology
 OBFM             Office of Budget, Finance and Management
 OCIO             Office of the Chief Information Officer
 ODD              Office of Disability Determinations
 OEIE             Office of Electronic Information Exchange
 OESAE            Office of Enterprise Support, Architecture and Engineering
 OFM              Office of Facilities Management
 OIG              Office of the Inspector General
 OITIM            Office of Information Technology Investment Management
 OITSP            Office of Information Technology Security Policy
 OMB              Office of Management and Budget
 OPE              Office of Personnel



Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)           A-1
 Operations       Office of Operations
 OTSO             Office of Telecommunications and Systems Operations
 Pub. L. No.      Public Law Number
 SP               Special Publication
 SSA              Social Security Administration
 SSAISSO          SSA Information Systems Security Officer
 SSP              System Security Plan
 Systems          Office of Systems
 U.S.C.           United States Code




Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)   A-2
                                                                        Appendix B

Scope and Methodology
Our objective was to determine whether the Social Security Administration (SSA)
implemented the recommendations in our June 2001 report, Compliance of the Social
Security Administration’s Computer Security Program with Applicable Laws and
Regulations (A-13-98-12044).

The applicable laws for agency-wide information security programs have changed since
our 2001 audit. Our current audit was conducted according to the security framework
and requirements established by and according to the Federal Information Security
Management Act of 2002 and related Federal guidance.

We examined the prior report; compared the criteria used in the prior audit with current
criteria; interviewed SSA personnel currently responsible for addressing the prior
recommendations; and reviewed and examined SSA documentation for implementing
our recommendations and related policy and procedures against Federal criteria.

We reviewed the following criteria:
   Computer Security Act of 1987;
   Government Information Security Reform Act of 2000;
   Federal Information Security Management Act of 2002;
   Office of Management and Budget Circular A-130, Management of Federal
    Information Resources,11/28/2000, Appendix III, Security of Federal Automated
    Information Resources;
   National Institute of Standards and Technology (NIST) Special Publication (SP)
    800-18, Guide for Developing Security Plans for Federal Information Systems,
    Revision 1, February 2006;
   NIST SP 800-53, Recommended Security Controls for Federal Information Systems,
    Revision 2, December 2007;
   NIST SP 800-12, An Introduction to Computer Security: The NIST Handbook,
    October 1995;
   NIST SP 800-61, Computer Security Incident Handling Guide, Revision 1,
    March 2008; and
   Government Accountability Office, Executive Guide: Information Security
    Management, Learning from Leading Organizations, GAO/AIMD-98-68, May 1998.

We contacted or interviewed SSA staff from the following components, or reviewed the
contents of their websites related to their security functions and security documents:

   SSA Chief Information Security Officer;



Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                 B-1
   Office of the Chief Information Officer (OCIO), Office of Information Technology
    Security Policy;
   Office of Budget, Finance and Management, Office of Strategic Services, Office of
    Electronic Information Exchange (OEIE);
   Office of Operations, Office of Public Service and Operations Support, Division of
    Systems Security and Program Integrity; and
   Office of Systems, Office of Telecommunications and Systems Operations, Division
    of Information Systems Security Administration and Operations.

We reviewed the following SSA documents:
   Information Systems Security Handbook;
   Rules of Behavior for Users and Managers of SSA's Automated Information
    Resources, March 23, 2001;
   SSA Memorandum, Sanctions for Unauthorized Systems Access Violations and
    Guidance for Employees on How to Transact Social Security Business that Requires
    System Access, May 15, 2008;
   OCIO, Social Security Administration Information Technology Security Policy and
    Standards Development and Issuance Process, August 14 2008;
   OCIO, Social Security Administration Computer Security Incident Reporting Process,
    August 14, 2008;
   IT Systems Security Plan;
   OEIE, Information Security Officer Guide, Revised November 2008; and
   Onsite Security Control and Audit Review guides, chapters related to systems and
    physical security.

We conducted this audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives. We
conducted our field work at SSA Headquarters in Baltimore, Maryland, from
December 2008 through May 2009.




Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)               B-2
                                                                                         Appendix C

Federal Information Security Management Act
Requirements Related to Security Management
Structure
SECURITY OFFICERS’ ROLES AND RESPONSIBILITIES BY CURRENT LAW

The Federal Information Security Management Act of 2002 (FISMA) requires that a
Federal agency head delegate to the agency Chief Information Officer (CIO) the
authority to ensure compliance with FISMA requirements.1 The agency CIO has the
following responsibilities:2

          1.   designating a senior agency information security officer;
          2.   developing and maintaining an agency-wide information security program;
          3.   developing and maintaining information security policies, procedures and
               control techniques to address all applicable requirements;
          4.   training and overseeing personnel with significant responsibilities for
               information security;
          5.   assisting senior agency officials concerning their responsibilities in providing
               information security for the information and information systems that support
               the operations and assets under their control (including through risk
               assessments, assessment of levels of security necessary, cost-effective
               measures to reduce risk to acceptable levels, and periodic testing and
               evaluating security controls and techniques to ensure they are effectively
               implemented);3 and
          6.   reporting annually to the agency head on the effectiveness of the agency’s
               information security program.4

The senior agency information security officer should head an office with the mission
and resources to assist in ensuring agency compliance with FISMA.5


1
    Pub. L. No. 107-347, Title III, Section 301 (b)(1) § 3544 (a)(3), 44 U.S.C. § 3544 (a)(3)
2
    Id.
3
  Pub. L. No. 107-347, Title III, Section 301 (b)(1) § 3544 (a)(2) and (a)(3)(E), 44 U.S.C. § 3544 (a)(2) and
(a)(3)(E).
4
    Pub. L. No. 107-347, Title III, Section 301 (b)(1) § 3544 (a)(3) and (5), 44 U.S.C. § 3544 (a)(3) and (5).
5
    Pub. L. No. 107-347, Title III, Section 301 (b)(1) § 3544 (a)(3)(A)(iv), 44 U.S.C. § 3544 (a)(3)(A)(iv).


Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                                          C-1
FISMA DEFINITION OF AGENCY-WIDE INFORMATION SECURITY PROGRAM

In addition to specifying responsibilities of the CIO and senior agency information
officer, FISMA also defines what an agency-wide information security program should
include.6

      1.     Periodic risk assessments;
      2.     Policies and procedures that: are based on a risk assessment, are cost
             effective in reducing risk, and ensure information security is addressed through
             the life cycle of each agency information system and compliance with
             applicable security requirements;
      3.     Subordinate plans for providing adequate information security for networks,
             facilities, and systems or groups of information systems;
      4.     Security awareness training for employees and contractors and other users of
             information systems;
      5.     Periodic testing and evaluation of the effectiveness of information security
             policies, procedures, and practices (at least annually);
      6.     A process for remedial actions to address security deficiencies in the
             information security policies, procedures, and practices of the agency;
      7.     Procedures for detecting, reporting, and responding to security incidents; and
      8.     Plans and procedures to ensure continuity of operations for information
             systems.




6
    Pub. L. No. 107-347, Title III, Section 301 (b)(1) § 3544 (a)(3) and (b), 44 U.S.C. § 3544 (a)(3) (b).


Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                                        C-2
                                                                        Appendix D

Current Social Security Administration Security
Management Structure and the Office of the
Inspector General Recommended Staff
Functions and Reporting Lines
The Social Security Administration’s (SSA) agency-wide security program is highly
decentralized with security responsibilities and functions conducted by several security
components and a network of security officers. None of the security components or
security officers is responsible for ensuring agency-wide compliance with the Federal
security requirements. Each Deputy Commissioner-level and Agency-level office is
responsible for its own compliance with all security requirements. The security
components and security officers report to their respective Deputy Commissioners (DC)
and Agency-level officers, who do not report to the Chief Information Officer (CIO) for
security compliance and performance. See the following diagram for an overall
management structure of SSA’s security program.




Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                D-1
                            SSA Security Management Structure and
                          Network of Security Components and Officers


    CIO                  DC            DC           DC                       DC         All Other DCs
                    for Systems    for Budget,      for                  for Human           and
                                  Finance and    Operations              Resources      Agency-Level
                                  Management                                                Officers



   CISO              Office of      Office of     Office of                Office of    Other DC- and
                     Systems        Budget,      Operations                Human        Agency-Level
   OITSP                          Finance and                             Resources        Offices
                    OTSO and      Management       DSSPI
                     OESAE/                                                 OPE/
                      DISA        OEIE and OFM                             CPSPM

                                                     Component                         Component
                                                       Security                         Security
                                                      Officers at                       Officers
                    Component      Component        Headquarters
                     Security       Security         and Center
                     Officers       Officers         Directors for         Component
                                                     Security and           Security
                                                    Integrity in all        Officers
                                                       regions
   Bi-weekly IT
  Security Policy
   and Strategy                                     Local              State
     Advisory                                      Security            DDSs
   Meetings (on                                    Officers
  security issues
   and policies)



Office of the CIO, Office of Information Technology Security Policy (OITSP)
headed by SSA’s Chief Information Security Officer (CISO) - In supporting the CIO,
the CISO and the OITSP are responsible for issuing security policies and Federal
Information Security Management Act of 2002 related testing, evaluation, and reporting.
Except for functions retained by CISO and OITSP, SSA delegates all remaining security
program functions to other components. In other functional areas within SSA’s security
program, the CISO does not have authority and, for the most part, acts in a coordinating
and supporting role. OITSP conducts limited monitoring activities through bi-weekly
meetings with security components to discuss security issues and policies.

Office of Budget, Finance and Management (OBFM), Office of Electronic
Information Exchange (OEIE) - Formerly known as the Office of Systems Security
Operations Management, OEIE plays an important role in SSA’s agency-wide security
program. OEIE’s agency-wide security responsibilities include: development of SSA's
security program requirements and procedures; implementation of governing directives
in the area of systems security; administration of the Agency’s access control program;



Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                              D-2
management of an onsite systems review program and a comprehensive security
compliance and monitoring program; and providing direction to the Agency's security
officers.

OEIE is also responsible for maintaining security policy documentation, providing
security training, implementing security requirements, and executing safeguards for
SSA's State information exchange programs. OEIE chairs SSA’s Critical Infrastructure
Protection Committee and serves as the Agency representative for its entity-wide
security program for the annual financial statement audit. However, OEIE does not
have the responsibility to ensure security controls are implemented and enforced
agency-wide.

OBFM, Office of Facilities Management (OFM) - OFM directs SSA’s physical and
protective security program and establishes policy to ensure the safety and security of
SSA employees, visitors, and property.

Office of Operations (Operations), the Division of Systems Security and Program
Integrity (DSSPI) - DSSPI along with the regional Centers for Security and Integrity
(CSI) are responsible for developing, coordinating, and implementing a comprehensive
national program for Operations to focus on systems security and programmatic fraud
issues. This program covers all components within Operations including regional
offices, program service centers, teleservice centers, field offices, and all Operations
Headquarters components. DSSPI and CSIs work with Local Security Officers at the
field office level regarding security issues.

Office of Systems (Systems), Office of Telecommunications and Systems
Operations (OTSO) - OTSO is responsible for implementing technical security controls
and procedures and SSA’s Disaster Recovery planning, testing, and execution. OTSO
also monitors security controls and configurations for compliance and maintains the
information system for cyber security incident identification and reporting. However,
OTSO does not have agency-wide responsibility to ensure technical security
compliance.

Systems, Office of Enterprise Support, Architecture and Engineering (OESAE),
the Division of Information Security and Assurance (DISA) - Within Systems,
provides comprehensive security services, solutions, and best practices that enhance
information assurance and security for software applications assuring they are efficient,
secure, and compliant with Agency and Federal information system security
requirements.

Office of Human Resources, Office of Personnel (OPE), the Center for Personnel
Security and Project Management (CPSPM) - CPSPM manages SSA's nationwide
programs for personnel security and suitability and national security for employees and
contractors. CPSPM is also responsible for policy development in the area.




Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                  D-3
Component Security Officers (CSO) - Within SSA Headquarters, including all
DC-level and Agency-level offices, CSOs are responsible for ensuring compliance
within their respective components.

Office of Disability Determinations (ODD) - Within Operations, ODD coordinates and
distributes regulations and policy to the State Disability Determination Services (DDS).
DDS management has overall responsibility for the security of their site and compliance
with established security policies and procedures. DDS management is also
responsible for notifying and reporting any security breach or incident to SSA offices
within the region.

RECOMMENDED STAFF FUNCTIONS AND REPORTING LINES

We recommended the following staff functions and reporting lines:

                 Recommended Staff Functions and Reporting Lines

                                                                   Staff Responsible for
                                                                   Implementing Agency-wide
                                                                   Security Program
     Staff Responsible for         Chief Information
     Personnel Security and            Officer/
     Suitability Program           Chief Information               Staff Responsible for
                                    Security Officer               Developing and
                                                                   Implementing Physical
                                                                   Protection Requirements for
     Staff Responsible for                                         SSA Facilities
     Information Assurance




       IT Investment             Staff Responsible for                Staff Responsible for
       Management Staff          Information Security                 Continuity of Operations
                                 Policy Including Personnel           Program for Information
                                 and Physical Security                Systems
                                 Policy Development



                                                       ----- Indirect Reporting to CIO
                                                       ___ Direct Reporting to CIO



   Staff Responsible for Implementing Agency-wide Security Program: DSSPI staff
    within Operations and OTSO staff within Systems need to indirectly report to the
    CIO.



Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                            D-4
   Staff Responsible for Developing and Implementing Physical Protection
    Requirements for SSA Facilities: The facility management staff within OBFM need
    to indirectly report to the CIO.

   Staff Responsible for Continuity of Operations Program for Information Systems:
    OTSO Disaster Recovery staff need to directly report to the CIO.

   Staff Responsible for Information Security Policy Including Personnel and Physical
    Security Policy Development: Current OCIO staff and any other staff responsible for
    personnel and physical security policy development need to directly report to the
    CIO.

   IT Investment Management Staff: These staff currently report to the CIO.

   Staff Responsible for Information Assurance: DISA staff within Systems need to
    indirectly report to the CIO.

   Staff Responsible for Personnel Security and Suitability Program: The Center for
    Personnel Security and Project Management staff within the Office of Human
    Resources need to indirectly report to the CIO.




Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                  D-5
                                                                        Appendix E

Agency Comments




Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)
                                          SOCIAL SECURITY

MEMORANDUM


Date:      September 9, 2009                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Follow-Up: The Social Security
           Administration’s Computer Security Program Compliance” (A-14-09-19048)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




           Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                      E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S
COMPUTER SECURITY PROGRAM COMPLIANCE” (A-14-09-19048)


Recommendation 1

SSA should centralize its security management structure to ensure a coordinated approach to its
agency-wide information security program.

Comment

We defer comment until our new Chief Information Officer (CIO) has the opportunity to review
the issue of a centralized security management structure. We also plan to convene a workgroup
to review any underlying issues and make recommendations as appropriate.

Recommendation 2

Clearly delineate roles, responsibilities, and lines of communications that report to a single
management focal point.

Comment

We defer comment on a single management focal point until our new CIO has the opportunity to
review the issue. We agree that we need to clearly delineate roles, responsibilities, and lines of
communications. We will convene a workgroup to review any underlying issues and make
recommendations as appropriate.

Recommendation 3

Ensure the CIO is delegated with sufficient authority and provided sufficient resources to fulfill
his security responsibilities according to applicable laws, regulations, and guidance.

Comment

We defer comment on sufficient delegated authority and resources until our new CIO has the
opportunity to review the issue. We do support providing additional resources to the CIO for use
in fulfilling his security responsibilities.




Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                            E-2
Recommendation 4

Update the agency-wide Information Security Program Plan.

Comment

We agree. The CIO’s office is currently reviewing and updating both our agency-wide
Information Security Program Plan and our IT Security Strategic Plan. We will be sure to align
both documents. We have already aligned our IT Security Strategic Plan with our agency
Strategic Plan.

Recommendation 5

As appropriate, ensure written policies and procedures require notification of all agency systems
users of certain computer incidents.

Comment

We agree. Agency policy requires that we maintain computer incident response capability. We
are updating the Incident Reporting Handbook to reflect the responsibilities of our security
response team in notifying all agency systems users, as appropriate, of computer incidents.

We also include computer incident notification procedures in the Office of Systems/Office of
Telecommunications and Systems Operations incident response documentation. These
procedures should be included in the Information Systems Security Handbook only as a
reference to the Office of Systems managed documentation. Exposing the procedures to more
individuals increases the risk for misuse and it may desensitize employees to the message
delivery vehicle if used too frequently.

Recommendation 6

Update the Information Systems Security Handbook (ISSH) with the most current and accurate
information and consider further delineating security roles and responsibilities of our agency
components and security officers related to the subject matter in each chapter. We should
include all security policies or references in the ISSH.

Comment

We agree. We are updating and restructuring the ISSH to include all security policies,
references, accurate organizational names, and reporting relationships. We will further delineate
the security roles and responsibilities as appropriate.




Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)                         E-3
                                                                        Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Brian Karpe, Acting Director, Information Technology Audit Division

   Phil Rogofsky, Audit Manager

   Mary Ellen Moyer, Audit Manager

Acknowledgments
In addition to those named above:

   Grace Chi, Auditor-in-Charge

   Tina Nevels, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-14-09-19048.




Follow-up: SSA’s Computer Security Program Compliance (A-14-09-19048)
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
